                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE O F INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

11 Case Number: A04050027                                               11        Page 1of 1


         I n connection with another case in our office'l we discovered copying in one of this
         subject's2 proposals.3 During our inquiry, we found copying in two additional
         proposals on which the subject was PI.4 We referred the investigation to the
         university that submitted the three proposals. The university concluded the subject
         was responsible for the copied text in the three proposals.

         We agreed with the university and recommended NSF make a finding of research
         misconduct against the subject for plagiarism. NSF agreed and took the additional
         recommended action of requiring the subject to certify for 3 years t h a t any
         proposals submitted by the subject contain no plagiarized material.

         Accordingly, this case is closed. This memorandum, the Deputy Director's
         adjudication, and our Report of Investigation constitute the closeout for this case.




             1   (redacted).
             2   (redacted).
             3   (redacted).
             4   (redacted).



 NSF OIG Form 2 (11102)
                                  NATIONALSCIENCE FOUNDATION
                                      4201 Wl LSON BOULEVARD
                                     ARI-INGTON, VIRGINIA 22230




     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Misconduct in Science Determination

Dear Dr.

       In 2002-03, you submitted three proposals to the National Science Foundation ('WSF").
These.proposals were entitled,
                      .   .   .
                                                                            E


-   .                  - --
As documentedin the attached investigative Report prepared by NSF's Office of inspector
General ("OIG"), these proposals contained plagiarized text.

Scientific Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ..." 45 CFR 8 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 8 &89.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR 5 689.2(c):

       Your proposals contain verbatim and paraphrased text from several source documents,
including numerous journal articles. By submitting a proposal to NSF that copies the ideas or
words of another without adequate attribution, as described in the OIG Investigative Report, you
                                                                                               Page 2
misrepresented someone else's work as your own. In addition, you failed to properly
acknowledge or credit the authors of the source documents in your proposals. Your conduct
unquestionably constitutes plagiarism. I therefore conclude that your actions meet the definition
of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR $689,2(c). Afier
reviewing the Investigative Report and the University Committee Report, NSF has determined
that, based on a preponderance of the evidence, your plagiarism was committed recklessly and
constituted a significant departure from accepted practices of the relevant research community. I
 am, therefore, issuing a finding of research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, 11, and III) that can be
taken in response-to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
requiring that an institution or individual obtain special prior approval of particular activities
from NSF; and requiring that an institutional representative certify as to the accuracy of reports
or certifications of compliance with particular requirements. 45 CFR §689.3(a)(I). Group I1
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR $689.3(a)(2). Group IJJ actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR $689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our determination that it was reckless, as well as
our determination that it was a part of a pattern of plagiarism. I have also considered the fact that
your misconduct did not have a significant impact on the research record, your willingness to
accept responsibility for your actions, and the contrition that you demonstrated during the course
of the investigative process. I have also considered other relevant circumstances. 45 CFR fj
689.3 (b).

        Ln light of the foregoing, I am requiring that, from the date of this letter until January 1,
201 0, you certify that any proposal you submit as a principal investigator or co-principal
investigator does not contain plagiarized material. Such certifications should be submitted in
writing to the Office of Inspector General, 4201 Wilson Boulevard, Arlington, Virginia 22230.

Procedures govern in^ Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR $689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final. For your information we are attaching a copy of the applicable
                                                                                 Page 3
regulations. If you have any questions about the foregoing, please call   , Assistant
General Counsel, at (703) 292-8060.



                                                     Sincerely,



                                                     Kathie L. Olsen
                                                     Deputy Director

Enclosures
- Investigative Report
- 4.5 C.F.R. Part 689
                         National Science

   Office of Inspector General




                   Confidential
               Investigation Report
             Case Number A04050027

                         12 September 2006
CONFIDENTIAL

NSF OIG FORM228 (1103)
     The Office of Inspector General (OIG) has concluded three proposals submitted
to NSF by the PI contain over 160 lines of text plagiarized from multiple sources.
The PI took responsibility for the copied text in two of the three proposals, but he
claimed his co-PI on one proposal was responsible for that copied text. The co-PI
denied culpability and said the PI was responsible for the copied text. We referred
the allegation to the University. The University concluded the P I committed
plagiarism in the disputed proposal. Based on the evidence, we recommend NSF
make a finding of Research Misconduct and take the following actions: send a letter
of reprimand and, for a period of 3 years from final resolution of this case, require
the Subject to certify in writing that any documents submitted to NSF are free of
any misconduct.


                                            OIG Inauiry
     I n the course of examining proposals for a previous case,l we discovered
copying in one of this Subject's proposals (proposal A).2 The Subject, the P I of
proposal A, was to collaborate with the subject of the previous case. We opened this
case to determine who was responsible for the copied text.
     We ran three of the Subject's proposals (proposals A-C)3 through our
plagiarism software and found numerous instances of text apparently copied from
multiple sources.4 Proposal A has approximately 31 lines of text copied from 11
sources; proposal B has approximately 77 lines of text copied from 19 sources; and
proposal C h a s approximately 56 lines of text copied from 23 sources.5
      We contacted the Subject for a n explanation. He requested a meeting with us
to discuss the matter. During the meeting, the Subject took responsibility for the
text in proposals A and C. He distanced himself from proposal B, saying he had
little to do with it. He claimed the co-PIG was responsible for everything in t h a t
proposal except for the last page. For the bulk of the two proposals for which he

    1 (redacted).
    2 (redacted).
    3 (redacted).
    4 Proposal B was submitted prior to 17 Apr 02. I n cases such as this, in which some of the
alleged misconduct occurred before 17 Apr 2002, NSF applies its current regulation in whole, except
that instead of using its current definition of "Research Misconduct," i t uses the definition of
"Misconduct in Science" in effect a t the time of the alleged act. The relevant part of that definition is
"Fabrication, falsification, plagiarism, or other serious deviation from accepted practices in
proposing, carrying out, or reporting results from activities funded by NSF." We determined the
allegation falls under the previous definition. Accordingly, we applied the old definition and
proceeded under the current regulation. As to Proposals A and C, we applied the current regulation
in toto as they were submitted after 17 April 2002.
    5 Appendices A, B, and C contain the proposals, with their respective source documents. The
copied text is highlighted and cross-referenced.
    6 (redacted).
accepted responsibility, the Subject characterized the copied text as mistakes, if
even that. He viewed many of the allegedly plagiarized passages a s overviews of
the literature. H e noted many of the selections were only partial sentences or
phrases and said use of the term "according to,'' with a n associated reference, was a
sufficient citation in lieu of quotation marks if using verbatim text. There were
several sentences where he acknowledged the text was copied verbatim and there
was not a citation or a n "according to" phrase, but he maintained he did not copy
those phrases, although he could not explain from where he got that text if not
copied from the source. During our interview with the Subject, he expressed little
understanding of the rules of scholarly citation. The Subject's signed statement is
Appendix (D).
     Because the Subject accepted responsibility for two proposals (A and C), and
said the third (B) was the responsibility of the co-PI, we decided to treat his co-PI a s
a n additional subject in the matter (Subject2). We wrote Subject2 requesting a n
explanation for the copied text in Proposal B. Subject2 said he did not write the
proposal; the Subject was responsible for it. He said he had not even seen some of
the material until we asked for his comments on it. SubjectZ7sresponse is Appendix
(E)-
     Because the inquiry did not dispel the allegation, we referred the allegation to
the University from which this proposal was submitted.7 Our referral letter is
Appendix (F).
                                  T h e University's Actions
     The University's Research Integrity Officer8 convened a Committee to
investigate the allegation. The Committee's report is Attachment (G).9 The
Committee interviewed both Subjects and all the collaborators associated with
proposal B. I t asked the University's Computer Forensic Specialist for analysis of
the electronic documents recovered from both subjects7computers. It examined
several of Subject2's papers for plagiarism. It also examined proposals A and C on
which Subject2 was not involved for evidence of a pattern.
     The Committee concluded a preponderance of evidence supported the
allegation that the Subject was responsible for the questioned text in proposal B.
While Subject2 did most of the preparation of proposal B, he used material provided
to him by the Subject. The electronic evidence collected by the Committee supports
the conclusion the Subject created and emailed Subject2 the original documents
that contained the plagiarized material. It found no instances of copying in
SubjectZ7spapers and noted the similarities of style and content of the copied
material i n proposal B to the copied material in proposals A and C, which the

      The Subject transferred from (redacted) to (redacted) before our Inquiry began. We referred the
allegation to (redacted).
    8 (redacted), Associate Vice President for Research and Graduate Studies.
    9 The Committee's full report with attachments is on the enclosed cd. The cd also contains the
University's response to several follow-up questions.
Subject admitted he prepared. The Committee concluded the Subject's plagiarism
i n proposal B significantly departed from the community standards and was
committed recklessly. It thought Subject2 was careless a n d credulous in not
checking his colleague's contributions to proposal B.
     The University's adjudicatorlo endorsed the Committee's report. He will send
Subject2 a letter of reprimand because, a s co-PI, he was also responsible for
ensuring the integrity of proposal B.11 He said the University "will develop and
implement a policy that requires faculty and students to receive instructions and/or
tutorials on academic misconduct."l2
         The Subject did not comment on the University's report.
                                        OIG's Assessment
     We accept the University's report a s accurate and complete, and we conclude
the University followed reasonable procedures in its investigation.13 We were
impressed with the Committee's thoroughness in gathering and assessing the
available evidence and recognize the difficulty in obtaining the electronic records, a s
they were several years old.
     NSF's Research Misconduct Regulation states that a finding of misconduct
requires: (I) There be a significant departure from accepted practices of the relevant
research community; and (2) The research misconduct be committed intentionally,
or knowingly, or recklessly; and (3) the allegation be proven by a preponderance of
the evidence.14


     Through the Subject's admissions and the University's investigation, we
determined the Subject copied verbatim numerous phrases and occasional complete
sentences, totaling 164 lines from 53 sources into 3 proposals, all without quotation
marks. Many (23) of the sources were cited, but the citations were not always near
the copied text, so the reader would not recognize the text was taken from the
source and not the Subject's original words.


    The University "conclud.[ed.] that the plagiarism was a reckless act by [the
Subjectl"l5 and he "appears to exhibit a lack of understanding of the rules



    10 (redacted), President.
    11 As noted i n fn. 5, the Subject had left the University, so the adjudicator could take no action
against him.
    l2 The president's cover letter to the report, Appendix (G).
    13 We note the Committee concluded Subject2 was careless i n his review of proposal B and the
adjudicator wrote he would reprimand him. We do not find Subject2's actions rise to the level of
research misconduct and make no recommendations regarding him.
    14 45 CFR 5 689.2(c).
    15 Appendix (G), Committee Report, p. 1.
concerning plagiarism."l6 We concur. As noted earlier, in his interview with OIG,
even when the Subject agreed text was copied verbatim without a reference or
quotation marks, he characterized it as only overview material. During the
Committee's interview with the Subject, he stated,
         They [OIG] said you should have put quotations in this part that
         contain references. . . . They [OIG] said when you quoted statements
         you have [to] put quotations marks is what they said. This was
         something I did not think necessary, but this is what they thought, but
         in no way did I try to make anybody think this was my work in the
         introductory or main part of the proposal.
         I put the work and then the reference, and I thought that would be
         enough. It was just a matter of opinion to me, but they [OIG] did not
         consider that way.17
The Committee concluded, "[ilt is apparent from this response that [the Subject]
demonstrated a lack of understanding of the rules about plagiarism during his
interview."l8 While we agree the Subject appeared to lack an understanding of
citation practices, we conclude he should have been aware of them. He's earned two
Master degrees and a Ph.D.,lg he has published papers in peer-reviewed journals,
he has been awarded research grants, he has directed graduate student theses, and
he is a member of professional societies. Given these interactions with his
community, we conclude the Subject should have known the verbatim use of text
required proper attribution.
     We conclude a preponderance of the evidence shows the Subject acted
recklessly when he copied text from multiple sources into three proposals, mostly
without citation, always without indicating the text were not his original words.
Hence, we conclude the Subject's action is plagiarism and is research misconduct.
                             OIG's Recommended Disposition
     In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several' factors. These factors include how serious
the misconduct was; whether it was an isolated event or part of a pattern; its
impact on the research record; and other relevant circumstances.
                                            Seriousness
     The Subject copied 164 lines of text from 53 sources into 3 proposals, which is a
substantial amount. The seriousness of the Subject's copying is mildly mitigated
because he cited many of the sources in his proposal, albeit not near the copied text;
for many sources he did not copy complete sentences; and his copying was assessed

    16 Ibid.,p. 2.
    17 Ibid.,p. 7.
    18 Id.
    19 One Master degree is in (redacted), one is in (redacted), and his Ph.D is in (redacted). These
three degrees were all earned a t (redacted).
a s reckless, rather than knowing. The Subject's plagiarism i n three proposals
demonstrates evidence of a pattern of plagiarism.
                                        Aggravating Factor
      As noted earlier, the Subject accepted responsibility for the copied text i n two
proposals, but disputed copying the text i n the third proposal. Despite his denial of
responsibility for the copied text i n proposal B, the University's investigation
showed by a preponderance of evidence the Subject was responsible for that text a s
well. Therefore, the Subject's action of denying his responsibility for authorship of
Proposal B is a n aggravating factor which raises the seriousness of this case.
Because of the Subject's denial, both OIG and the University went through
unnecessary efforts and delays in resolving this matter. I t was particularly onerous
for the University because of the significant difficulty in recovering the electronic
files from the Subject's computer, and the intensive review of Subject2's
publications to refute the Subject's false statements.
                            Subiect's R e s p o n s e t o d r a f t R O I
     The Subject responded to our draft Report of Investigation-20 He wrote t h a t
until our Inquiry, he was not aware the scholarly standards for a proposal were the
same a s for a published paper. He nonetheless recognized his ignorance was not a
valid defense and he regrets any misconduct. He reiterated his acceptance of
responsibility for proposals A and C, but did not think he was responsible for
          B because it was his first proposal submission and, although he was the
PI, he was the junior faculty and his co-PI was a senior Professor. He thought our
recommendations were overly harsh and would have a too negative effect on his
career. He informed us he has taken two proposal writing courses in which ethics
were discussed, and attended a presentation by a n NSF Program Director a t a
national conference in his research area.
                                       O I G Assessment
     While we recognize the factors the Subject lists surrounding the preparation of
proposal B, we do not think those factors explain the appearance of plagiarized text
in the proposals. Conversely, we acknowledge the Subject's initiative in taking
classes to educate himself about the standards of proposal preparation without
waiting for resolution of this case.21 By taking these seminars, the Subject
demonstrated he wanted to improve his understanding of the standards of
scholarship required by NSF and other funding agencies. Accordingly, we modified
our recommendations.
                                          Recommendations
        We recommend NSF take the following actions:


   20 Appendix   (H).
   21 Appendix (I) is (redacted) summaries of lectures, workshops, and seminars he attended on
ethics and writing. I t includes proof of attendance.
            Send a letter of reprimand;22
            For a period of 3 years from the final resolution of this case, require the
            Subject to certify in writing that the grant application is free of any
            misconduct .23




22   A letter of reprimand is a Group I action-45 CFR § 689,3(a)(l)(i).
23   Assurance of compliance is similar to a Group I action-45 CFR 5 689.3(a)(l).
